No. __________

IN THE
SUPREME COURT OF THE UNITED
STATES

FRATERNAL ORDER OF POLICE,
CHICAGO LODGE NO. 7,

Petitioner,
v.
THE CITY OF CHICAGO,

Respondent.
On Petition For Writ of Certiorari
To The Supreme Court of Illinois
PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF SERVICE
I certify that on November 11, 2020, I caused to
be served one copy of the PETITION FOR WRIT
OF CERTIORARI, APPENDICES and
CERTIFICATE OF COMPLIANCE WITH PAGE
LIMITS on counsel of record for Respondent on the
attached Service List, via first-class United States

mail, postage pre-paid, and via electronic mail,
pursuant to Supreme Court Rule 29(3). I further
certify that I caused to be served by electronic mail
only, counsel for non-party entities that filed briefs
as Amicus Curiae on the attached service list.
I further certify that all parties required to be
served have been served and that I am a member
of the Bar of this Court.
Respectfully submitted,

/s/ Brian C. Hlavin
Brian C. Hlavin

Counsel of Record
BAUM SIGMAN AUERBACH & NEUMAN, LTD.
200 W. Adams Street, Suite 2200
Chicago, IL 60606-5231
(312) 236-4316
bhlavin@baumsigman.com
November 11, 2020

For Respondent: CITY OF CHICAGO:
Mark A. Flessner
Corporation Counsel, City of Chicago,
City Hall
121 N. LaSalle St.,Fl. 5
Chicago, IL 60602
Mark.Flessner@cityofchicago.org
Benna Ruth Solomon
Deputy Corporation Counsel
Myriam Zreczny Kasper
Chief Assistant Corporation Counsel
Justin A. Houppert
Senior Asst. Corp. Counsel, Of Counsel
30 North LaSalle Street, Suite 800
Chicago, IL 60602
justin.houppert@cityofchicago.org
appeals@cityofchicago.org
Amicus Curiae before the Illinois Supreme
Court
For: IL AFL-CIO and FOP LABOR COUNCIL:
Tamara Cummings
IL Fraternal Order of Police Labor Council
5600 Wolf Road, #120
Western Springs, IL 60558
tcummings@fop.org
Steve Yokich
Dowd, Block, Bennett, Cervone,
Auerbach & Yokich
8 S. Michigan
Chicago, IL 60603
syokich@laboradvocates.com
Joel D’Alba
Asher, Gittler & D’Alba, Ltd.

200 W. Jackson, Suite 720
Chicago, IL 60606
jad@ulaw.com

For: ORGANIZATIONS AND RELIGIOUS
LEADERS THAT REPRESENT VICTIMS OF
CHICAGO POLICE MISCONDUCT AND
ORGANIZATIONS AND DATA SCIENTISTS
DEDICATED TO GOOD GOVERNMENT:
Chaclyn R. Hunt
Invisible Institute
6100 S. Blackstone Avenue
Chicago, IL 60637
chaclyn@invisibleinstitute.com
Craig B. Futterman
Mandel Legal Aid Clinic at the
University of Chicago Law School
6020 S. University Avenue
Chicago, IL 60637
futterman@uchicago.edu
For: THE REPORTERS COMMITTEE FOR
FREEDOM OF THE PRESS AND 19 NEWS
MEDIA ORGANIZATIONS FOR LEAVE TO
FILE BRIEF IN SUPPORT OF THE CITY OF
CHICAGO:
Natalie J. Spears - natalie.spears@dentons.com
Gregory R. Naron - gregory.naron@dentons.com
Julius C. Carter - julius.carter@dentons.com
Dentons U.S. LLP
233 S. Wacker Drive, Suite 5900
Chicago, IL 60606-66361
For: IL ATTORNEY GENERAL KWAME
RAOUL:
Sarah A. Hunger
Deputy Solicitor General
100 West Randolph Street, 12th Floor
Chicago, IL 60601
shunger@atg.state.il.us

